No. 20-443
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
v.
DZHOKHAR A. TSARNAEV,
____________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s Order of April 15,
2020) that I have, this 5th day of November, 2020, served the Brief for the National
Fraternal Order of Police as Amicus Curiae Supporting Petitioner upon each party
separately represented in this proceeding by causing an electronic copy of the same
to be delivered to counsel of record at the e-mail addresses listed below:
Jeffrey B. Wall
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioner
Ginger D. Anders
ginger.anders@mto.com
Counsel for Respondent

Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have caused
electronic copies of all documents to be filed with the Clerk.

/s/ William M. Jay
William M. Jay
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000
November 5, 2020

Counsel for Amicus Curiae

2

